Van |

C@OCKLE

: E-Mail Address:
Le ga I Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,

Vv.
AGNES MORRISSEY-BERRU,
Respondent.

 

ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTIN BIEL,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE FREEDOM.
FROM RELIGION FOUNDATION AND AMERICAN MEDICAL WOMEN’S ASSOCIATION
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 5103 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
State of Nebraska e a Mite Onda &. Gh
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39447

 

 
